                                                 Office of the Special Inspector General                                       John F. Sopko
                           SIGAR I for Afghanistan Reconstruction                                                  Special Inspector General




                                                                   May 5, 2014

          Dr. Arthur B. Keys, Jr.
          President and Chief Executive Officer
          International Relief and Development
          1621 North Kent Street
          Suite 400
          Arlington, VA 22209


          Dear Dr. Keys:

          An article in today' s Washington Post raises concerns about your company's work on
          reconstruction projects in Afghanistan on behalf of the U.S. Agency for International
          Development (USAID). 1 The article reports, among other things, that International Relief &
          Development (IRD) has attempted to use confidentiality agreements as a way of prohibiting its
          employees from making critical statements about IRD to "funding agencies" or "officials of any
          government. " 2

          Although the article notes that IRD may now be revising this policy, your company's conduct
          raises serious questions regarding its commitment to transparency and to government oversight of
          the hundreds of millions of dollars in U.S. taxpayer funds IRD receives from USAID. In
          particular, IRD's policy of prohibiting employees from informing government officials of critical
          information appears to violate the False Claims Act, 31 U.S.C. §§ 3729-3733, federal
          whistleblower statutes, and the Federal Acquisition Regulation.

          As a former Federal prosecutor and in my current position as Special Inspector General for
          Afghanistan Reconstruction, I am well aware of the courage it takes for employees of government
          contractors to report waste, fraud, and abuse of government funds. The threat of retaliation for
          reporting problems to oversight agencies is all too real. I am simply not willing to tolerate an
          attempt to institutionalize employee intimidation. Therefore, I am initiating an inquiry into these
          allegations.

          To aid in our inquiry, please provide the following information:




                 1 Scott Higham, Big budgets, little oversight in war zones, The Washington Post, May 4, 2014.

                 http://www.washingtonpost.com/investigations/doing-well-by-doing-good-the-high-price-of-working-in-war-
                 zones/2014/05/04/2d5f7 ca8-c715-11e3-9D7-7ce307 c56815 story.html.

                 2 IRD, Confidential Separation Agreement and General Release.
                 http://apps.washingtonpost.com/g/page/world/ird-confidentiality-agreement-warns-against-making-negative-
                 statements/997 /.


                 1550 Crystal Drive, 9th Floor       Mall: 2530 Crystal Drive
                 Arlington, Virginia 22202           Arlington, Virginia 22202-3940        I   Tel: 703 545 6000    www.slgar.mll



SIGAR-14-55-SP
                    1. Has IRD asked its current or former officers and employees to sign the confidentiality
                       agreement referenced in the Washington Post report or any similar agreement? If so,
                       please provide the number of current and former officers and employees who have
                       been asked to sign this agreement or any similar confidentiality agreement.

                    2. The Washington Post quotes IRD as claiming that it "is changing its policy to ensure
                       that [IRD's] policies confirm to the latest developments in employment law." Does
                       this mean that IRD will no longer include confidentiality provisions in future
                       employment or post-employment agreements?

                    3. Has IRD notified all current and former officers and employees that confidentiality
                       agreements of this nature are prohibited by law and are therefore null and void?

                    4. Please provide a certification that IRD has notified all current and former officers and
                       employees that any such confidentiality agreement entered into with IRD is prohibited
                       by law and is therefore null and void. Please provide this certification no later than
                       May 19, 2014.

                 Please address your responses and provide appropriate points of contact within 14 days of the
                 date of this letter to Jack Mitchell, Director of the Office of Special Projects, at (703) 545-
                 5964 or john.h.mitchell 16 l .civ@mail.mil. Please do not hesitate to contact him should you
                 have any questions about this request.




                                                                                       John F. Sopko
                                                                                       Special Inspector General
                                                                                        for Afghanistan Reconstruction



          cc:

          The Honorable Dr. Rajiv Shah
            Administrator, U.S. Agency for International Development




                 1550 Crystal Drive, 9th Floor   Malling 2530 Crystal Drive
                                                 Arlington, Virginia 22202-3940
                                                                                  I   Tel 703 545 6000   I   www.slgar.mll
                 Arlington, Virginia 22202



SIGAR-14-55-SP
